        OFFICE OF INSPECTOR GENERAL


                                  Catalyst for Improving the Environment



Audit Report




        EPA’s Computer Security
        Self-Assessment Process
        Needs Improvement

        Report No. 2003-P-00017


        September 30, 2003
Report Contributors:              Ed Densmore
                                  Debbie Hunter
                                  Martin Bardak
                                  Teresa Richardson
                                  Michael Young
                                  Bill Coker




Abbreviations

ASSERT          Automated Security Self-Evaluation and Reporting Tool
EPA             Environmental Protection Agency
FISMA           Federal Information Security Management Act
GISRA           Government Information Security Reform Act
IT              Information Technology
NIST            National Institute of Standards and Technology
OEI             Office of Environmental Information
OIG             Office of Inspector General
OMB             Office of Management and Budget
          Executive Summary
Management has taken positive actions to establish a computer security self-
assessment process. However, additional areas need to be addressed to provide
greater assurance that the Environmental Protection Agency’s (EPA’s)
information technology security is accurately measured.

EPA’s Office of Environmental Information (OEI) uses self-assessments to
collect security-related information about its systems and report the consolidated
results to the Office of Management and Budget. OEI took several significant
actions to help program and regional personnel complete and report on self-
assessments. OEI converted the self-assessment questionnaire into an Automated
Security Self-Evaluation and Reporting Tool (ASSERT), a web-based format to
facilitate compiling and reporting results, and provided step-by-step instructions
on its use. Further, OEI reconciled EPA’s system inventory to budget
documentation.

Despite these positive efforts, improvements are needed in order for the Agency
to place reliance on its computer self-assessment process. Specifically:

•	 Thirty-six percent of the critical self-assessment responses in our review were
   inaccurate or unsupported. Approximately 9 percent were inaccurate and 27
   percent unsupported. As a consequence, the responses to the self-assessment
   questions we reviewed did not identify or support the current security status of
   those systems.

•	 EPA’s system inventory did not identify all major applications. As a result,
   not all major applications completed a self-assessment or were included in the
   self-assessment for the applicable general support system.

•	 EPA management did not provide proper oversight to ensure implementation
   of authentication/identification security controls, which increased the
   potential for unauthorized access, misuse, and system downtime.

•	 EPA did not adequately plan for systems controls. As a result, management
   authorized systems to operate without being provided adequate information on
   the impact these risks had on operations.

These weaknesses were caused primarily because OEI does not have a systematic
program to ensure that system controls are accurately presented and implemented
throughout the Agency. To improve the self-assessment process, OEI’s Director
for Technology, Operations, and Planning needs to implement a systematic
monitoring and evaluation program. Only then can management place reliance on
the collected data and make informed judgments and investments.


                                 i
In a memorandum dated July 15, 2003, OEI’s Director for Technical Information
Security responded to our draft report (Appendix B) and concurred with most of
our recommendations. However, OEI raised concerns regarding the breadth of
some finding statements, and did not agree that the audit’s sampling and
evaluation methodology supported a broad, Agency-wide conclusion regarding all
technical controls. As such, we modified the report to clarify that the findings
pertained to the critical self-assessment questions and responses we reviewed.
Furthermore, although the sample was judgmental, we believe the national
systems selected provided adequate coverage of EPA’s program offices, as well
as different types of Agency data (e.g., financial, enforcement/compliance, and
systems containing environmental data). However, we modified the report
language from “technical controls” to “authentication/identification controls” in
order to more specifically reflect the work that was performed.




                                ii
                                        Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     i




 Chapters

            1        Introduction         .................................................                                                1


            2        Security Self-Assessments Contain Unreliable Data . . . . . . . . . . . . . . . . . .                                 5


            3        Systems Inventory Incomplete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    9


            4        Greater Oversight of Authentication/Identification Controls Needed . . . . . .                                       13 


            5        Security Plans Not Sufficient . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            15 




 Appendices

            A        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     19 


            B        Agency Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21 


            C        NIST Control Elements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            29 


            D        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   31 





                                                                      iii
                                Chapter 1
                                Introduction

Purpose

          The objective of this audit was to review the Agency’s policies, procedures, and
          practices regarding EPA’s self-assessment of major applications and general
          support systems. Specifically, we determined whether:

          •	 Computer security self-assessments were accurate and complete.

          •	 EPA identified all major applications.

          •	 Major application systems used authentication and identification controls to
             protect against unauthorized access or misuse.

          •	 Systems security plans were documented, approved, and reviewed, and were
             consistent with National Institute of Standards and Technology (NIST)
             guidance.

          We initially planned to identify both general support systems and major
          applications. Due to a software limitation involving EPA’s network, we could not
          verify that all general support systems were listed on the systems inventory.

Background

          The Federal Information Security Management Act (FISMA) and its predecessor,
          the Government Information Security Reform Act (GISRA), require all Federal
          agencies to conduct annual reviews of their security program and to report the
          results of those assessments to the Office of Management and Budget (OMB).
          OMB reviews the assessment results to determine how well agencies
          implemented security requirements. Starting in fiscal 2002, OMB directed
          agencies to use the Federal Information Technology (IT) Security Assessment
          Framework developed by the Federal Chief Information Officers Council, as well
          as the self-assessment methodology developed by and outlined in NIST Special
          Publication 800-26, to conduct these reviews.

          Self-assessments provide a method for agency officials to determine the current
          status of the overall information security program and, where necessary, establish
          targets for improvement. The self-assessment methodology developed by NIST
          includes a questionnaire to help agencies assess how well information security
          controls have been implemented on every general support system and major


                                           1
         application. The NIST self-assessment questionnaire utilizes an extensive list of
         specific control objectives and techniques against which the security of a system
         can be measured. The questionnaire is comprised of over 200 questions that
         address 34 critical elements of security. To measure the progress of effectively
         implementing the needed security control, five levels of effectiveness are used to
         assess each security control question, as shown in Table 1:

                             Table 1: Five Levels of Security Effectiveness

           Level       Name                                 Description

             1      Policy           Control objective is documented in a security policy

             2      Procedures       Security controls are documented as procedures

             3      Implemented      Procedures have been implemented

             4      Tested           Procedures and security controls are tested and reviewed

             5      Integrated       Procedures and security controls are fully integrated into a
                                     comprehensive program



         These five levels provide a standardized approach to assessing the status of
         security controls for major applications and general support systems. Per NIST
         guidance, the method for answering the questions can be based primarily on an
         examination of relevant documentation and a rigorous examination and test of the
         controls.

         During fiscal 2002, EPA’s Office of Environmental Information (OEI) developed
         EPA’s Automated Security Self-Evaluation and Reporting Tool (ASSERT), a
         web-based version of NIST 800-26 Security Self-Assessment Guide for
         Information Technology Systems questionnaire. OEI subsequently tasked system
         owners to complete a self-assessment for every major application and general
         support system.

Scope and Methodology

         We conducted audit field work from January 2003 to April 2003 at EPA
         Headquarters and Regions 1, 2, 3, 5, and 6. To accomplish this audit’s objectives,
         we used a variety of Federal and Agency criteria, including OMB Circular A-130,
         various NIST Special Publications, and several EPA Directives (see Appendix A).
         We conducted this audit in accordance with Government Auditing Standards,
         issued by the Comptroller General of the United States. We reviewed selected
         NIST self-assessment questions, EPA’s system inventory, and selected system
         security plans. In addition, we reviewed and tested authentication/identification
         controls at selected locations. The sampling methodologies provided coverage of
         EPA’s program offices, as well as different types of Agency data (e.g., financial,


                                           2
          enforcement/compliance, and systems containing environmental data). Further
          details on audit scope and methodology are included in Appendix A.

Prior Audit Coverage

             EPA OIG Report No. 2003-P-00009, EPA Undertaking Implementation
             Activities to Protect Critical Cyber-Based Infrastructures, Further Steps
             Needed, dated March 27, 2003: This report focused on the adequacy of EPA
             activities for protecting its IT infrastructure and, among other things,
             recommended that EPA revise security plans for IT systems critical to its
             cyber-based infrastructure so that they meet NIST requirements.

             EPA OIG Report No. 2002-S-00017, Government Information Security
             Reform Act: Status of EPA Computer Security Program, dated September 16,
             2002: This report noted that while EPA has made progress in strengthening
             its security program, management must continue to seek improvements in the
             areas of risk assessments, effective oversight processes, and training
             employees with significant security responsibilities.




                                         3
4

                              Chapter 2
  Security Self-Assessments Contain Unreliable Data
            Our review of selected critical self-assessment responses identified 36 percent
            that were inaccurate or unsupported. As a consequence, the responses to the
            self-assessment questions we reviewed did not identify or support the current
            security status of those systems. The inaccurate responses occurred because
            OEI issued Guidance for Reviewing ASSERT Responses to GISRA-related
            Questions that was not consistent with NIST guidance. In addition, OEI did
            not systematically monitor or evaluate the system owner responses to verify
            the responses were accurate or supported.

Results of Review

              Thirty-six percent (78 of 216) of the critical self-assessment questions we
              examined were inaccurate or unsupported. Approximately 9 percent of
              system owners responses were inaccurate, and 27 percent were unsupported.
              We determined a response to be “inaccurate” if the system owner’s
              supporting documentation was not consistent with the data reported in the
              system self-assessment. We determined a response to be “unsupported” if
              the system owner did not provide any documentation. For example:

              •	 Ten of 17 systems owners that responded “implemented” to the question,
                 “Is the contingency plan approved by key affected parties?” did not
                 provide the OIG a copy of an approved contingency plan.

              •	 Nine of 16 systems owners that responded “implemented” to the
                 question, “Does the budget request include the security resources
                 required for the system?” did not provide supporting budget
                 documentation to the OIG.

              •	 Eight of the 27 systems owners did not have supporting documentation
                 for 50 percent or more of their responses.

              As a consequence, the responses to the self-assessment questions we
              reviewed did not identify or support the current security status of those
              systems. OEI reported to OMB a Plan of Actions and Milestones to correct
              the system weakness for each question that did not have an “implemented”
              response. Therefore, our review disclosed that Agency’s Plan of Actions and
              Milestones may not have included all necessary action items due to
              inaccurate or unsupported responses.

              We determined system owners did not provide accurate responses to the self-
              assessment questionnaire, in part, because OEI’s guidance to system owners
              was inconsistent with NIST guidance. For example, in the question “Has a


                                          5
contingency plan been developed and tested?” OEI’s guidance directed the
system owner to respond “implemented” as long as the system had a
contingency plan in place. Although some system owners had developed a
contingency plan, we determined that most plans had not been tested. To be
consistent with NIST guidance, these system owners should have responded
“procedures” rather than “implemented” to this question. We conferred with
the author of NIST 800-26 regarding interpretation of this question and
confirmed that system owners only should respond “implemented” when the
system contingency plan has been tested.

Another self-assessment question asked, “Are tests and examinations of key
controls routinely made, e.g., network scans, analyses of router and switch
settings, penetration testing?” OEI guidance directed the system owner to
respond “implemented” if the system is subjected to routine monitoring by
one of the Agency’s automated monitoring tools (Bindview or Enterprise
Security Manager). While we agree that the Agency’s automated monitoring
tools examine technical controls, they do not examine management and
operational controls, which should be included in “examination of key
controls.” NIST confirmed this question includes routinely testing
management, operational, and technical controls.

Furthermore, some system owners relied upon statements from system
operators or other individuals to formulate responses without obtaining or
maintaining documentation to support the veracity of each response. For
example, many of the system owners that responded “implemented” to the
question “Is the system security plan approved by key affected parties and
management?” could not produce a copy of the approved security plan.
These system owners could not support the “implemented” response. Also, 2
of the 27 system owners did not respond to the OIG’s repeated requests for
support documents.

While OEI has performed a variety of monitoring security activities, these
activities did not include the systematic monitoring and evaluation of the
self-assessment responses. OEI believes the accuracy of the self-assessments
is first and foremost the responsibility of the senior agency official who owns
the system(s). While we agree that the assigned senior agency official has a
responsibility for providing accurate information concerning the system’s
security controls, FISMA 3544 (3) states “the head of each agency shall
delegate to the agency Chief Information Officer the authority to ensure
compliance with the requirements imposed on the agency,” including
designating a senior agency information security officer who shall head an
office with the mission and resources to assist in ensuring agency
compliance. In our opinion, “ensuring agency compliance” should include
systematic monitoring and evaluation of the security self-assessment
responses, since such oversight activities will help ensure that the Agency’s
quarterly report to OMB accurately reflects the effectiveness of EPA’s
information security program.


                            6
Recommendations

            We recommend that the Director for Technology, Operations, and Planning:

            2-1.	   Direct system owners to use NIST 800-26 to answer the security
                    control objectives listed in ASSERT or ensure additionally issued
                    guidance is consistent with NIST 800-26.

            2-2.	   Direct system owners to obtain and maintain the documentation to
                    support self-assessment responses and provide such documentation to
                    the OIG upon request.

            2-3.	   Develop and implement a program that systematically monitors and
                    evaluates the system security self-assessment responses.

Agency Comments and OIG Evaluation

            In a memorandum dated July 15, 2003, OEI’s Director for Technical
            Information Security responded to our draft report (see Appendix B). In
            summary, OEI concurred with the report recommendations, but raised
            concerns regarding the breadth of some finding statements. We modified the
            report language to clarify that the findings pertained to the critical self-
            assessment questions and responses we reviewed. We also amended the
            report to emphasize that we conferred with appropriate NIST personnel, who
            concurred with our interpretation of their guidance related to self-assessment
            questions on contingency plans and testing of key controls. In responding to
            the recommendations, OEI stated it is establishing a procedure under the
            Agency Network Security Policy to require the use of applicable NIST
            guidance as the basis of all Agency IT-related policies and procedures. In
            addition, OEI has dedicated some of its employees to an Agency-wide testing
            and evaluation program. Subsequent discussions with OEI also resulted in
            an additional recommendation pertaining to the maintenance of support
            documentation for security self-assessments. In our view, the corrective
            actions described in the response are appropriate and should, when fully
            implemented, respond adequately to the recommendations.




                                        7
8

                               Chapter 3
               Systems Inventory Incomplete
              ASSERT, EPA’s system inventory for security purposes, did not identify all
              major applications. As a result, not all major applications had a completed
              security self-assessment, which could impact the overall information security
              status of the Agency. Although OEI took steps to ensure an accurate
              inventory of major application systems was obtained, they relied solely on
              the systems owners to identify which systems met the criteria for a major
              application or general support system, without systematically evaluating the
              system owners’ responses.

Results of Review

              We determined that ASSERT did not include all major applications. OMB
              requires that all major applications and general support systems be reported
              under FISMA. FISMA states the head of each Agency shall ensure that
              senior agency officials provide information security for the information and
              information systems that support the operations and assets under their
              control. In addition, it states the Chief Information Officer will designate a
              senior agency information security officer who shall head an office with the
              mission and resources to assist in ensuring agency compliance with FISMA
              requirements.

              We determined an information system to be a major application if it met
              OMB’s definition, as stated in Circular A-130, Appendix III, Security of
              Federal Information Resources. OMB states a “major application” requires
              special attention to security due to the risk and magnitude of the harm
              resulting from the loss, misuse, or unauthorized access to or modification of
              the information in the application. In addition, a “system” can refer to a set
              of processes, communications, storage, and related resources that are tied
              together by logical boundaries.

              Whether the system includes one application or consists of multiple
              applications residing on a general support system, NIST stipulates that all
              applications should be (1) classified as either a major application or general
              support system, and (2) be covered by a security plan. Finally, NIST states
              that a security self-assessment should be completed for every major
              application and general support system.

              We found ASSERT did not include the following seven systems that either
              qualify as major applications or were not included in the self-assessment of
              one of EPA’s general support systems, as shown in Table 2:


                                          9
                         Table 2: Systems Not Included in ASSERT

                                 Program
      System Name                 Office                        Explanation

   Asbestos Receivable        Office of Chief     Should be a major application. System
   Tracking System            Financial Officer   contains loan receivable information that
                                                  is confidential in nature.
   Inter-Agency Document      Office of Chief     Should be a major application because
   Online Tracking System     Financial Officer   data includes confidential business
                                                  information and has high integrity
                                                  requirements.
   Working Capital Fund       Office of Chief     Currently not classified. System should
   Workload and Billing       Financial Officer   be recognized and accounted for in the
   System                                         security plan and self-assessment of an
                                                  EPA general support system.
   Water Assessment           Office of Water     Inadvertently deleted from ASSERT
   Treatment Results                              2003, although it was included in prior
   System                                         year inventory.
   Bankcard System            Office of Chief     Should be a major application. System
                              Financial Officer   must be highly accurate and reliable in
                                                  order to correctly modify bankcard
                                                  commitments, create obligations, and
                                                  prepare payment transactions.
   Small Purchase             Office of Chief     Should be a major application because of
   Tracking System            Financial Officer   high integrity requirements.
   Electronic Approval        Office of Chief     Currently not classified. System should
   System                     Financial Officer   be recognized and accounted for in the
                                                  security plan and self-assessment of an
                                                  EPA general support system.




As a result, not all major applications completed a self-assessment of security
controls and related operational practices or were included in the self-assessment for
the applicable general support system. Self-assessments provide a method for
Agency officials to determine the current status of their information security
program and, where necessary, establish a target for improvement. Without a full
accounting of major application systems, Agency officials cannot fully understand
the current status of their information security program and controls in order to make
informed judgments and investments that appropriately mitigate risks to an
acceptable level.

Although OEI took steps to obtain an accurate inventory of major application
systems, its efforts were not sufficient. For example, in July 2002, OEI sent a
memorandum to EPA’s Information Security Officers that identified OMB’s
definitions for general support systems and major applications. In addition, OEI
reconciled EPA’s inventory to budget documentation, to identify systems that had


                                      10
         not been reported that should have been. Also, OEI instructed Information
         Security Officers to perform a self-assessment of their respective systems or take
         action to remove systems that did not meet the criteria of a major application.
         Despite these actions, major applications were omitted from ASSERT or were not
         included in the applicable general support system self-assessment. This occurred
         because OEI relied on systems owners to identify which systems met the criteria
         for a major application or general support system without systematically
         evaluating the system owners responses. In addition, the general support system
         security plan for the Agency’s mainframe computer did not include non-major
         applications that reside on the system.

Recommendations

        We recommend that the Director for Technology, Operations, and Planning:

          3-1.	       Direct general support system owners to include all applications
                      residing on the system in the system’s security plan.

          3-2.	       Coordinate with system owners to amend ASSERT to add the missing
                      major applications noted in this report.

          3-3.	       Develop and implement a program that systematically monitors and
                      evaluates system classification.

Agency Comments and OIG Evaluation

          OEI concurred with the recommendations, and indicated it will (1) coordinate
          with the system owners to ensure the systems in question are included in the
          system inventory, unless the system owners can provide adequate documentation
          to the contrary; and (2) make a diligent effort, under its quality assurance
          program, to validate that all major applications and general support systems are
          properly classified and accounted for. Furthermore, our discussions with OEI
          representatives led to another report recommendation to ensure that general
          support systems security plans account for all system applications. In our view,
          the corrective actions described in the response are appropriate and should, when
          fully implemented, respond adequately to the recommendations.




                                          11
12

                               Chapter 4
   Greater Oversight of Authentication/Identification
                       Controls Needed
           EPA management did not provide proper oversight to ensure implementation of
           authentication/identification controls, such as periodic reviews of system access
           listings to ensure that only authorized individuals have access to each system and
           that access levels are appropriate. As a result, the potential for unauthorized
           access, misuse, and system downtime was increased. This occurred because OEI
           management relied on authentication/identification control information
           submitted by program and regional offices without validating its reliability.

Results of Review

           OEI did not provide sufficient oversight for authentication and identification
           controls to ensure systems were protected against unauthorized access and
           misuse. While we recognize that OEI is not directly responsible for
           implementing authentication/identification controls, the E-Government Act of
           2002 charges the senior agency information security officer to head an office
           with the mission and resources to assist in ensuring agency compliance with
           FISMA requirements. As such, OEI is accountable for ensuring that EPA’s
           managers implement and maintain appropriate security controls.

           We identified program and regional offices that had not properly implemented
           access controls over selected IT systems. Some system managers did not
           periodically review access lists to verify that users needed access to the system
           and that the levels of access were appropriate. For example, periodic reviews of
           user access lists and users’ authorization levels were not conducted on three of
           the six systems reviewed. As a result, users were assigned greater authorization
           levels than necessary and some users retained access rights after they no longer
           required them. These control weaknesses increased the potential for the
           manipulation and/or misuse of systems.

           Also, our examination of user access listings disclosed that Agency systems had
           not been assigned adequate personnel to ensure the availability of the systems to
           users, which can increase system downtime. For example, two of the six systems
           reviewed only empowered one person with the authority to grant or coordinate
           access for other users. Continued availability is very important for these
           systems, since their respective security plans state “non-availability of systems
           or data would impair the Agency’s long-term ability to accomplish its mission.”
           These systems are used to support compliance/enforcement-related activities for
           the national pesticides program.



                                          13
          We are currently drafting a separate report to system owners addressing the
          system-specific weaknesses we found with regard to user access and
          authorization levels, maintaining system availability, and the need for more
          frequent oversight of these authentication/identification controls.

          The noted weaknesses occurred, in part, because OEI had not implemented a
          comprehensive monitoring and evaluation program to ensure system managers
          comply with established practices governing implementation of controls.
          Instead, OEI relied on information submitted by the program and regional offices
          without validating the information. Sufficient oversight for the implementation
          of authentication/identification controls will help ensure system managers are
          periodically reviewing user access listings and that the Agency’s IT systems are
          available to users. Furthermore, OEI’s oversight of the implementation of
          security controls will help detect and subsequently assist in preventing
          unauthorized access and misuse of the Agency’s IT systems.

Recommendation

          We recommend that the Director for Technology, Operations, and Planning:

           4-1. 	    Develop and implement a comprehensive program that systematically
                     monitors and evaluates the implementation of
                     authentication/identification controls.

Agency Comments and OIG Evaluation

          OEI’s response to the draft report indicated it does not agree that the audit
          sampling and evaluation methodology supports a broad, Agency-wide
          conclusion for all technical controls. As such, OEI did not concur with the
          recommendation. Although the sample was judgmental, we believe the national
          systems selected provided adequate coverage of EPA’s program offices, as well
          as different types of Agency data (e.g., financial, enforcement/compliance, and
          systems containing environmental data). However, we modified the report
          language and recommendation for this chapter, changing “technical controls” to
          “authentication/identification controls,” in order to more specifically reflect the
          work that was performed.




                                          14
                               Chapter 5
                 Security Plans Not Sufficient
           EPA did not adequately address controls in its information system security plans.
           Our review disclosed that security plans omitted or lacked sufficient details
           regarding security controls, such as logical access to system data, contingency
           plans, and planned reviews of system security controls. Systems security plans
           should comply with NIST guidance by describing controls in place or planned.
           As a result, management authorized systems to operate without being provided
           adequate information on the impact that existing risks may have on operations.
           This weakness occurred, in part, because EPA’s security planning guidance had
           not been revised to include NIST requirements. Also, several system owners
           used previous security plans that did not comply with NIST as examples to
           develop or update the current plans.

Results of Review

           Our review of selected security plans disclosed that system controls were not
           adequately planned for in Agency information systems. The system security
           plans reviewed showed that management, operational, and technical controls
           were either not included or lacked sufficient details when compared to guidelines
           found in NIST Special Publication 800-18, Guide for Developing Security Plans
           for Information Technology Systems.

           OMB Circular A-130, Appendix III, Security of Federal Automated Information
           Resources, requires management to develop security plans that are consistent
           with NIST guidelines. Furthermore, management’s authorization to operate an
           IT system should be based on an assessment of management, operation, and
           technical controls, as documented in the system’s security plan.

           To determine the adequacy of EPA system security plans, we reviewed a
           judgmental sample of 18 security plans. To ensure we reviewed security plans
           of systems that are both mission critical and representative of EPA’s major
           financial, administrative, and programmatic systems, we selected our sample
           from a universe of plans that have benefitted from prior OEI oversight reviews.
           For each of the security plans reviewed, we evaluated 26 security control
           elements, defined in NIST 800-18, to ensure each element met the specified level
           of detail. For example, to meet the level of detail NIST outlined for the “review
           of security controls,” each security plan would need to:

           •	 List any independent security reviews conducted on the system during the
              last three years.



                                          15
 •	 Include information about the type of security evaluation performed, who
    performed the review, the purpose of the review, the findings, and the actions
    taken as a result.

 We summarized our results for each of the 26 major control elements and
 calculated the percentage of reviewed security plans that were not consistent
 with NIST guidelines. The following Table 3 identifies those control elements
 that resulted in the highest percentages of noncompliance with NIST, either
 because the element was missing from security plans or because the plans did not
 contain a sufficient level of detail. Additional information on NIST contol
 elements and our compliance percentages will be made available upon request.

                  Table 3: Security Plan Reconciliation to NIST 800-18


                   NIST Control Elements *                        Non-compliance

Major Application: Application Software Maintenance
Controls
                                                                       100%
General Support System: Hardware System Software
Maintenance Controls

Reviews of security controls                                             86%

Identification and Authentication controls                               86%

Major Application: Data Integrity/Validation Controls
                                                                         85%
General Support System: Integrity Controls

Logical Access Controls                                                  85%

Contingency Planning                                                     79%

Audit Trails                                                             79%

Personnel Security                                                       79%

Authorized Processing                                                    64%


 * For a description of these control elements, see Appendix C.

As a result, management was authorizing systems to operate without being
provided adequate information on the impact these risks can have on operations.
In addition, a security plan that does not comply with Federal regulations limits
management’s assurance that the system’s owner has identified all applicable
security requirements.

These deficiencies occurred because EPA’s guidance for developing a system
security plan – the Information Security Planning Guidance – had not been revised



                                    16
        since NIST issued guidance on creating a system security plan in 1998. Our
        review of the Information Security Planning Guidance determined that it does not
        completely define all key points that NIST 800-18 outlines for inclusion in major
        application and general support system security plans. For example, EPA’s
        Information Security Planning Guidance does not:

        •	 Require documenting the risk assessment methodology used to identify threats
           and vulnerabilities.

        •	 Define the level of detail required by NIST for Personnel Security measures
           pertaining to levels of sensitivity and access.

        •	 Identify general support system requirements for contingency planning.

        •	 Identify the need to develop a security plan for a system at the “initiation
           phase” of the System Development Life Cycle.

        We also found that several system owners used previous security plans, which did
        not comply with NIST, as examples to update the current plans. In addition, a
        systematic monitoring and evaluation process was not in place to ensure that
        security plans met NIST requirements.

Recommendations

          We believe that the Agency’s Information Security Planning Guidance needs to
          be revised to align itself with NIST requirements. However, we will not
          reiterate that need because it is addressed in EPA OIG Report 2003-P-00009,
          EPA Undertaking Implementation Activities to Protect Critical Cyber-Based
          Infrastructures, Further Steps Needed, dated March 27, 2003.

          We recommend that the Director for Technology, Operations, and Planning:

          5-1.	       Establish a completion date as to when all EPA systems security
                      plans will be revised to comply with security plan controls defined in
                      NIST 800-18 guidance, and ensure individual security plans are
                      revised as scheduled.

          5-2.	       Establish a process which systematically monitors and evaluates
                      systems security plans to ensure they comply with NIST guidelines.




                                         17
Agency Comments and OIG Evaluation

           In its response to the draft report, OEI concurred with our initial
           recommendation but took exception to how the results of our review were
           presented in Table 3. We modified the report to clarify that Table 3 identifies
           security plan elements that, based on our review, resulted in the highest
           percentages of noncompliance with NIST guidelines. Based on subsequent
           discussions with OEI representatives, we have included an additional
           recommendation for establishing a process to ensure systems’ security plans
           comply with NIST guidelines. OEI’s response indicated that it has formally
           adopted NIST 800-18 as the basis for Agency security plans. Moreover, it will
           give priority to ensuring that new system security plans and major revisions to
           existing plans are consistent with NIST. Per discussion with OEI management,
           the remaining security plans will be revised in accordance with the established
           three year review cycle. In our opinion, the planned corrective actions are
           appropriate.




                                         18
                                                                                   Appendix A

                 Details on Scope and Methodology
To accomplish this audit’s objectives, we used a variety of Federal and Agency regulatory
documents, including:

• A-130, Appendix III, Security of Federal Automated Information Resources,
• NIST Special Publications:
     -      800-14, Principles and Practices for Securing IT Systems
     -      800-18, Guide for Developing Security Plans for Information Technology Systems
     -      800-26, Security Self-Assessment Guide for Information Technology Systems
     -      800-30, Risk Management Guide for Information Technology Systems
• EPA Directive 2195 A1, Information Security Manual
• EPA Directive 2195.1 A4, Agency Network Security Policy
• EPA’s Information Security Planning Guidance

The focus of this audit was to review EPA’s policies, procedures, and practices regarding
systems’ security self-assessments completed during fiscal 2002. We analyzed various
supporting documentation and technical controls, and interviewed key EPA personnel. The
specific methodology for reviewing and validating self-assessment data, EPA’s system inventory,
authentication/identification controls, and security plans, follows:

Self-Assessment Data

To determine whether the self-assessments were accurate and supported, we randomly selected a
sample of systems from the Agency’s ASSERT system, dated November 6, 2002. Specifically,
we reviewed system self-assessment responses for eight critical questions, selected by OEI, to
determine whether those responses were accurate and supportable. During fiscal 2002, OEI
provided system owners additional guidance on how to respond to these eight questions, and we
took that additional guidance into account. We reviewed the system owners’ responses for 27
systems to determine whether the self-assessment responses were adequately supported. We
determined a response to be “inaccurate” if the system owner’s supporting documentation was not
consistent with the data in the self-assessments and “unsupportable” if the system owners did not
provide any documentation.

System Inventory

To determine whether all major applications were listed on EPA’s inventory, we reviewed EPA’s
Enterprise Architecture and reconciled the systems listed to the major applications listed in
ASSERT. In addition we reconciled ASSERT to the systems reported as major applications in
EPA’s 2002 budget submission to OMB (i.e., OMB Exhibits 53 and 300B). For those systems we
could not reconcile, we reviewed some Memorandums of Understanding between the offices
responsible for the systems and interviewed EPA personnel to determine whether these systems



                                               19
met the criteria of a major application. In addition, we discussed interpretation of NIST 800-26
with NIST personnel.

Authentication/Identification Controls

We judgmentally sampled six national systems from the universe of major applications listed in
ASSERT. The systems selected provided coverage of EPA’s program offices, as well as different
types of Agency data (e.g., financial, enforcement/compliance, and systems containing
environmental data). We reviewed these systems at five regional locations to determine whether
authentication/identification controls were implemented. We performed testing to determine
whether selected major application systems had adequate authentication and identification
techniques, as defined by NIST 800-26. Furthermore, we verified that users listed on the access
listing still needed access, and tested their respective levels of access to ensure they were
appropriate. Also, we reviewed systems coordinator/administrator listings to determine whether
adequate personnel had been assigned to ensure the availability of the systems to users.

Security Plans

We judgmentally selected a sample of 18 security plans from the universe of plans OEI used to
conduct its 2002 “completeness review.” We evaluated the systems security plans’ contents to
ensure they included and met the required level of detail described in NIST 800-18. Additionally,
we reviewed the Agency’s Information Security Planning Guidance to determine whether the
guidance defined all key points contained in NIST 800-18.




                                                20
                                  Appendix B

Agency Response to Draft Report




              21

OEI appreciates the opportunity to provide comments on the draft audit. We are very anxious to work with
you to ensure the effectiveness of the Agency’s information security program through audits and evaluations.
The combination of OIG independent evaluations and CIO implementation and oversight, as envisioned by
FISMA and OMB guidance, will keep EPA in the forefront of Federal IT security. We believe that resolution
of the issues raised by this audit will strengthen both our roles.

Please feel free to contact me (202-566-0304) to discuss any of our comments in more detail.

cc: 	Patricia Hill, Director of Business Systems, Office of Inspector General
    Mark Day, Director, Office of Technology Operations and Planning




                                                  22
                                          Attachment 1
 Summary of OEI Comments on Draft Audit Report, EPA’s Computer Security Self-Assessment Process Needs
                            Improvement Assignment No. 2003-000047
                                          July 11, 2003

•	 OEI is concerned about the overall tone of the report. While, there are multiple ways to analyze, interpret and
   present findings, the report shows the Agency’s security program in a poor light that we believe is inconsistent
   with the actual status of the program. For example, the table titled, “Security Plan Reconcilation to NIST 800-18"
   presents a “Rate of Deficiency” that implies that virtually all EPA’s security plans are so defective as to present a
   serious security risk to the Agency. In some cases there is the implication of mismanagement by OEI or Agency
   program officials. For example, the report states that “EPA management directed system owners to respond
   incorrectly to the self-assessment questions because they misinterpreted NIST’s guidance.”

•	 OEI is concerned about the report’s use of sweeping, broad generalizations that characterize a number of the
   findings. The report identifies specific weaknesses in very specific areas and generalizes those findings across the
   Agency security program. There are four findings which are of particular concern to OEI.

   1-1 	         OEI does not agree with the unqualified general conclusion that the 2002 GISRA results reported to
                 OMB were based on unreliable data and may not accurately represent the status of EPA’s
                 information security program.

        For EPA’s information security program to be effective, it is e ssential for program officials to be able to
        support their assessments. OEI requested the OIG to conduct an audit in this area and appreciates the OIG’s
        positive response to this request. We are concerned that some system managers were not able to provide
        supporting documentation and we intend to follow-up on this finding. However, OEI’s review of the OIG’s
        data concludes that of the eight questions reviewed by the OIG, there are only two questions where the
        programs’ ability to provide adequate supporting documentation is in question. OEI believes that an
        unqualified Agency-wide finding that questions the validity of EPA’s 2002 GISRA submission is
        unwarranted. The details of OEI’s analysis are covered in Attachment 2.

   1-2 	         In some cases the report uses a “judgmental” sample to form the basis of Agency-wide conclusions.
                 OEI’s statistical experts advised us that it is not statistically valid to infer conclusions to the whole
                 population based on the actions of a few judgmentally selected examples. Judgmental samples can
                 only provide insight into the deficiencies of the selected few. Furthermore, OEI believes that the use
                 of judgmental samples for FISMA evaluation purposes is inappropriate. FISMA section
                 3545(a)(2)(A) states that OIG evaluations should be based on “a representative subset of the
                 Agency’s information systems.”

   1-3 	         The report finds that an Agency-wide deficiency exists in the implementation of technical controls
                 on systems. It appears the audit reviewed only identification and authentication controls (not all
                 technical controls as implied by the finding) of a judgmental sample of systems. It also appears that
                 no actual testing of the effectiveness of controls was performed. Instead, the evaluation appears to
                 have consisted of interviews and a review of documentation. OEI believes that this methodology
                 does not support the Agency-wide finding in the report.

   1-4 	         The report finds that EPA did not adequately plan system controls because EPA’s security planning
                 guidance has not been revised to include NIST requirements. OEI believes that this finding is not
                 supportable for two reasons. First, it is based on a judgmental sample of systems. Second, OEI
                 believes that EPA’s security planning, consisting of policy and guidance, has been substantially
                 consistent with NIST guidance. There has never been a demonstration that the differences between
                 EPA and NIST guidance were so substantial that there was a significant risk to the Agency’s
                 systems.




                                                           23
•	 OEI and the OIG have differences regarding the interpretation of some of the security mandates in the OMB
   directives and NIST guidance. Our differences are noted in OEI’s comments in Attachment 2. OEI recognizes that
   the OIG may have legitimate different interpretations of guidance. Those differences should be noted in any audit.
   However, OEI believes that differences of opinion about how to interpret guidance do not support a finding that
   questions the reliability of EPA’s report to OMB unless the OIG can demonstrate that OEI’s guidance was
   unreasonable and resulted in a substantial risk increase to the Agency.

•	 The report does not appear to recognize how accountability and responsibility are assigned in FISMA and OMB
   A-130. Frequently, the report places responsibility on OEI or the CIO for actions that FISMA and OMB A-130
   clearly assign to program officials. An example is the finding that OEI is responsible for those systems that were
   not reported in 2002, despite the fact that OEI provided clear guidance to the programs and made a diligent effort
   to identify all Agency systems. The non-reported systems were, in fact, determined by the program officials to be
   not reportable and OEI accordingly accepted their determination. OEI disagrees with the report’s finding that there
   is a systemic problem with system identification that is OEI’s responsibility to remedy.

•	 Throughout the report OEI is criticized for not validating the information provided by the programs. OEI
   recognizes that it has a responsibility for ensuring effective implementation of the security program and OEI
   intends to increase its oversight activities. However, the report holds OEI fully accountable for any misreporting
   by program officials. Under FISMA program officials are responsible for security of the systems under their
   control and the OIG also has a substantial role in validation. The June 12, 2003 information request from
   Congressman Putnam to the Inspector General clearly expects that the OIG will play a significant role in
   validating FISMA 2003 data.




                                                          24
                                          Attachment 2
   Expanded OEI Comment on Draft Audit Report, EPA’s Computer Security Self-Assessment Process Needs
                             Improvement Assignment No. 2003-000047

                                                 September 22, 2003

OEI has informally provided the OIG staff with a marked-up version of the report containing comments for their
consideration. However OEI is formally submitting the following expanded comment.
                                                    Chapter 2

OEI Comment:

For EPA’s information security program to be effective, it is essential for program officials to be able to support their
assessments. OEI requested the OIG to conduct an audit in this area and appreciates the OIG’s positive response to
this request. We are concerned that some system managers were not able to provide supporting documentation and we
intend to follow-up on this finding. However, OEI’s review of the OIG’s data concludes that of the eight questions
reviewed by the OIG, there are only two questions where the programs’ ability to provide adequate supporting
documentation is in question. OEI believes that an unqualified Agency-wide finding that questions the validity of
EPA’s 2002 GISRA submission is unwarranted.

For three of questions dealing with security planning (12.2.1, 5.2.1, 4.1.5), the OIG found that over 90 percent of the
systems reviewed were able to provide supporting documentation. For two questions dealing with contingency
planning (4.1.4, 9.2.1), OEI disagrees with the OIG interpretation of NIST guidance. OEI believes that it provided the
programs with consistent and correct guidance and that OEI accurately reported the status of contingency planning to
OMB. OEI, in fact, reported that contingency planning is a problem with only 56 percent of the Agency systems
having implemented contingency plans and only 18 percent having tested contingency plans. While the OIG and OEI
may disagree on how to characterize the issue, we appear to agree that contingency planning is a weakness that results
in a “red” score on the Agency’s internal security report card.

For the question regarding testing of controls (2.1.4), OEI disagrees with the OIG’s interpretation of NIST guidance
and believes that the Agency accurately reported the status of testing of controls to OMB. OEI in fact, reported that
only 64% of EPA’s had tested controls, resulting in a “red” score on the Agency’s internal security report card.
Again, while the OIG and OEI disagree on how to characterize the issue, we appear to agree that testing of controls is
a weakness for the Agency that needs further improvement.

The remaining two questions with low supporting scores deal with security plan approval (5.1.1) and budget (3.1.5).
We believe that an unqualified finding of inaccurate reporting is unwarranted and we should focus on understanding
and correcting the underlying reasons for lack of supporting documentation. Some reasons include system owners
simply not responding, system owners not understanding the guidance, system owners not having the documentation,
the OIG finding the documentation inadequate, or underlying interpretation differences between OEI and OIG.

OIG Recommendation:
2-1.    Direct system owners to use NIST guidance to answer the security self-assessment questionnaire.
OEI Comment:
   OEI concurs with this recommendation. OEI is establishing a procedure under the Agency Network Security
Policy to require the use of applicable NIST guidance as the basis of all Agency IT-related policies and procedures.
OEI notes, however, that in some cases, NIST guidance may require interpretation and/or application to EPA’s
specific situation.

OIG Recommendation:
2-2. Develop and implement a comprehensive quality assurance program that, at a minimum:
        •	 Validates self-assessment responses by sampling systems and responses to determine if the responses
             are adequately supported.
        •	 Requires system owners to complete a Plan of Actions and Milestones to correct any noted
             deficiencies.




                                                           25
           •	  Establishes a process to follow up on identified deficiencies and ensure that appropriate corrective
               actions have been implemented.
OEI Comment:
       OEI concurs with this recommendation. OEI is establishing a new Agency-level FMFIA weakness that
commits OEI to expanding its Agency-wide testing and evaluation program. Additional FTEs have been transferred
into TISS specifically for testing and evaluation. OEI has a well established system for creating and tracking Plans of
Actions and Milestones.

                                                      Chapter 3

OIG Recommendation:
3-1.	 Coordinate with system owners to amend EPA’s systems inventory to add the seven missing major applications
        noted in this report.
OEI Comment:
        OEI concurs with this recommendation. OEI established clear criteria for systems to be included in the GISRA
report and made a diligent effort to identify systems across the Agency. Where system owners determined that certain
systems did not meet the criteria, OEI requested documentation of that decision. In further discussions with OIG staff,
it has become clear that several of the systems excluded from the systems inventory actually did meet OEI’s criteria
and should have been included by the system owners. The OIG staff is providing documentation to OEI and OEI will
coordinate with the system owners to ensure that the systems in question are included unless the system owners can
provide adequate documentation to the contrary.

OIG Recommendation:
3-2.	 Include in the quality assurance program referred to in Recommendation 2-2 a process to validate that all major
        IT systems are accounted for on EPA’s system inventory.
OEI Comment:
        OEI concurs with this recommendation with the understanding that OEI can not guarantee that all major IT
systems are actually included in the systems inventory. Under FISMA, the responsibility for categorization of systems
is the responsibility of the program official. OEI will make a diligent effort, under its quality assurance program, to
validate that all major applications and general support systems are accounted for in the Agency’s system inventory.
NIST has published a draft Federal Information Processing Standard (FIPS PUB 199) as required under FISMA that
establishes standards for system security categorization. Once the FIPS 199 is finalized, OEI plans to re-evaluate its
criteria and process for determining system security categorization.

                                                      Chapter 4

OEI Comment:

       OEI does not agree that the audit methodology supports the conclusion that OEI did not provide proper
oversight to ensure implementation of technical security controls. We base this comment on the following:
       1. The audit report states that the sample used to make this determination was six systems that were
judgmentally selected.
       2. Only identification and authentication controls, which are a subset of technical controls, were evaluated.
       3. It is not clear from the audit report that any actual testing was performed.

      OEI believes that a small judgmental sample, combined with evaluation of only a subset of technical controls
does not support a broad Agency-wide conclusion for all technical controls.

OIG Recommendation:
4-1. 	 Ensure system owners strengthen technical controls by tracking identified deficiencies in a Plan of Actions and
       Milestones.

OEI Comment:
     OEI does not concur with this recommendation for the reasons stated above.
                                                 Chapter 5

OEI Comment:




                                                          26
OEI does not agree with how the information is presented in the Table, “Security Plan Reconciliation to NIST 800
18.” The table implies that EPA’s security plans are so deficient as to present a significant security risk to the Agency.
The table appears to actually represent the percentage of those plans reviewed that contained a deficiency. OEI
believes that the Agency has had effective information security planning guidance that meets the requirements of
OMB A-130, Appendix III. This guidance, when properly followed, has resulted in good security plans. In addition,
OEI has done a considerable amount of work with owners of CPIC systems to upgrade the quality of their security
plans.

OIG Recommendation:
   5-1.	     Establish a Plan of Actions and Milestones, including an estimated completion date, as to when all EPA
             systems security plans will be revised to comply with NIST 800-18 requirements.
OEI Comment:
While OEI does not agree with the basis for this recommendation as described in the audit report, OEI does concur
with the recommendation that NIST 800-18 should be the basis for Agency information security plans. OEI has
formally adopted NIST 800-18 as the basis for Agency security plans. All new security plans and major revisions to
existing security plans must be consistent with NIST 800-18.




                                                           27
28

                                                                                   Appendix C

                          NIST Control Elements
Application Software Maintenance Controls - used to monitor the installation of, and
updates to, application software to ensure that the software functions as expected and that a
historical record is maintained of application changes.

Hardware System Software Maintenance Controls - used to monitor the installation of and
updates to hardware, operating system software, and other software to ensure that the hardware
and software function as expected and that a historical record is maintained of application
changes.

Review of Security Controls - an independent security review, assessment, or evaluation of
the system security controls.

Identification and Authentication Controls - technical measures that prevent unauthorized
people (or unauthorized processes) from entering an IT system.

Data Integrity/Validation Controls - used to protect data from accidental or malicious
alteration or destruction and to provide assurance to the user that the information meets
expectations about its quality.

Integrity Controls - used to protect the operating system, applications, and information in the
system from accidental or malicious alteration or destruction and to provide assurance to the
user that the information meets expectations about its quality.

Logical Access Controls - system-based mechanisms used to specify who or what is to have
access to a specific system resource and the type of access that is permitted.

Contingency Planning - procedures that would be followed to ensure the application
continues to be processed if the supporting IT systems were unavailable.

Audit Trails - a record of system activity by system or application processes and by user
activity.

Personnel Security - policies and procedures implemented and executed by people to prevent
disruption, damage, loss, or other adverse impact due to the well-intentioned actions of
individuals authorized to use or maintain a system (e.g., background screening, procedures to
terminate users access).

Authorized Processing - the authorization granted by a management official for a system to
process information.




                                              29
30

                                                                                 Appendix D

                                     Distribution

Director, Office of Technology, Operations, and Planning (2831T)
Director, Office of Technology, Operations, and Planning/Technical Information Security Staff
       (2831T)
Comptroller (2731A)
Agency Followup Official (the CFO) (2710A)
Agency Audit Followup Coordinator (2724)
Audit Follow-up Coordinator, Office of Environmental Information (2811R)
Audit Liaison, Office of Environmental Information (2812A)
Inspector General (2410)




                                              31
